Visa Platinum Credit Card
Account Disclosures

17151 Chesterfield Airport Rd.
Chesterfield, MO 63005
PH: 636-728-3333
TF: 800-767-8880
firstcommunity.com

INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate (APR)
for Purchases, Balance
Transfers and Cash Advances

7.90%

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge any interest on the portion of the purchases balance that you pay by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
FEES

Annual Fee

None

Transaction Fees
 Foreign Transaction Fee

1% of the US dollar amount of the foreign transaction
This fee applies to any credit card transaction where the merchant country is
different from the country of the card issuer, regardless of whether a currency
conversion is performed and even if you initiate the transaction from within the
United States.

Penalty Fees
 Late Payment Fee
 Returned Payment Fee

Up to $10.00
Up to $10.00

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases).
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Credit Card Account Agreement
Periodic Rate: The periodic rate that corresponds to the APR shown above is: 0.0216%.
These Account Disclosures for your Credit Card are part of and integrated with your Credit Card Agreement with First Community
Credit Union. We reserve the right to amend the Credit Card Agreement as permitted by law.

© 2021 Farleigh Wada Witt. All rights reserved.

CC Acct• 07-01-21 1

Visa Platinum Credit Card
Account Agreement
You grant us a security interest in all your shares and deposits,
present and future, and all accounts (except Individual Retirement Accounts and Keogh Accounts) with the Credit Union to
secure your Account and agree, upon default, the Credit Union
may apply all that is secured to pay any amounts due under this
Agreement, without further notice to you.
This Credit Card Account Agreement ("Agreement") and the Account Disclosures ("Account Disclosure") given to you when you
opened your Card account ("Account") will govern your Credit Card
and Account issued by First Community Credit Union ("Credit Union"). In this Agreement, the words "you," "your," "yours," "applicant,"
and "Borrower" mean any person who signs the application for this
Account, any joint obligor, guarantor, authorized user, or the person
whose name is embossed on the Card. The words "we," "us," "our,"
and "Credit Union" mean First Community Credit Union. The word
"Card" means any one or more credit cards issued under this Account. If you sign an application for this Account or sign or use
any Card or PIN, or allow others to use the Card or PIN, you and
they will have accepted this Agreement just as if you and they
signed it, and you and they, jointly and severally, will be bound
by the following terms and conditions which will govern this
Account.
1. You Promise to Pay
You promise to pay us all amounts, plus any Interest Charges,
which arise from use of the Card or Account by you or any other
person, and to be jointly and severally liable with such a person,
unless such other person does not have actual, implied, or apparent authority for such use, and you received no benefit from the
use. You promise to pay us either by check or other form of direct
payment or by automatic transfers from shares or by payroll deduction.
2. Account Access
a. Purchases, Cash Advances, and Balance Transfers
You must sign and activate the Card to use it. Once you have
signed the Card, you can use it to buy or lease goods, services, or
insurance wherever the Card is honored, up to the full amount of
your Credit Line. You may use your Account to get cash advances
from us. You may also use your Card to get a cash advance from
participating financial institutions and to access your line of credit
at automatic teller machines ("ATMs") within participating networks
ATMs.
b. Convenience Checks
If we approve, you may obtain advances under your Account by
writing preprinted convenience loan checks that we supply to you.
Your use of loan checks will be shown either as a purchase, cash
advance, or balance transfer on your monthly statement. We may
not honor your loan check if: your check is post-dated; payment of
the check would exceed your Credit Line; a check is signed by person without authorized access; the amount of the check is less than
the minimum required amount; your Account has been terminated
or suspended, or any drafts have been reported lost or stolen. You
may stop payment on a loan check if you provide us with the exact
information describing the check. If you give us incorrect information, we will not be responsible for failing to stop payment. You
understand there may be a charge for each stop payment order
requested. Our liability for a wrongful dishonor is limited to your
actual charges; however, a dishonor for the reasons stated above
is not a wrongful dishonor. Only the person whose name is printed
on a convenience check may sign it. All convenience checks must
be written in U.S. dollars. We will not certify a convenience check.
You may write these checks for any amount providing your total
© 2021 Farleigh Wada Witt. All rights reserved.

17151 Chesterfield Airport Rd.
Chesterfield, MO 63005
PH: 636-728-3333
TF: 800-767-8880
firstcommunity.com

outstanding balance does not exceed your available Credit Line
and your credit card remains in good standing. We are entitled to
return it unpaid if there is not enough available credit on your Account to pay it, if you are in default under this Agreement, if your
card or convenience checks have been reported lost or stolen, or
if the convenience check is post-dated. A convenience check may
not be used to make a payment on your credit card account or any
other loan account you have with us. The Credit Union shall have
no liability for any convenience check returned in excess of your
Credit Line.
3. Credit Line
If we approve your application, this Agreement will constitute a revolving line of credit for an amount which will be the Credit Line
under your Account. We will advise you of the amount of your
Credit Line. That amount will be the maximum amount you may
have outstanding at any one time. You agree not to attempt to obtain more credit than the amount of your Credit Line. However, if
you temporarily exceed your Credit Line, you agree to repay the
excess immediately, even if we have not yet billed you. Obtaining
such credit does not increase your Credit Line. We retain the right
to increase or decrease your Credit Line at any time. Any increase
or reduction in the amount of your Credit Line will be shown on your
monthly statement or by separate notice together with any changes
in the applicable Minimum Monthly Payments. Your eligibility for
this Credit Line is determined by our loan policy and may be terminated at our sole discretion, without demand or notice. You may
close your Credit Line at any time by notifying us in writing and
returning all Cards cut in half. If you terminate this Agreement or if
we terminate or suspend your credit privileges, the provisions of
this Agreement and your liability hereunder shall otherwise remain
in full force and effect until you have paid us all sums due us under
this Agreement and returned all Cards.
4. Minimum Monthly Payment
We will mail you a statement every month if your Account has a balance. You agree that you will pay each month not less than the minimum monthly payment on or before the closing date. The minimum
monthly payment will be the greater of $10 or 2.0% of your outstanding balance shown on your statement ("New Balance"). If your outstanding balance is less than $10, you agree to pay the balance in
full. In addition to the minimum monthly payment, you agree to pay
any "Overlimit Amount" and any amount past due shown on your
statement each month by the due date shown on your Statement.
You may pay in full for all your purchases and cash advances each
month, or you may repay in monthly installments. We can accept late
payments or partial payments, or checks, drafts, or money orders
marked "payment in full" without prejudice to our rights under this
Agreement, which are hereby explicitly reserved. A credit posting
from a merchant or reversal of fees does not constitute a minimum
payment. The minimum monthly payment may be allocated at the
Credit Union's discretion to pay off lower rate balances, such as promotional offers, before higher rate balances, such as cash advances
or purchases. Payments in excess of the minimum monthly payment
will be allocated first to higher rate balances, as applicable. From
time to time, we may allow you to skip your minimum monthly payment due. If you choose to skip that payment, Interest Charges will
continue to accrue in accordance with this Agreement. Payments received at: P.O. Box 1030, Chesterfield, MO 63006-1030, on or before 5:00 PM Central Time on any business day will be credited to
your Account as of that date; payments received by mail at that address after 5:00 PM Central Time or on a weekend will be posted to
your Account as of the next business day.

CC Acct• 07-01-21 2

First Community Credit Union  Credit Card Account Agreement

5.
Security Interest
By signing your application, to secure your Account, you grant us
a purchase money security interest under the Missouri Uniform
Commercial Code in any goods you purchase through your Account. If you default, we will have the right to recover any of these
goods that have not been paid for through application of your payments in the manner described in Section 4. In addition, you grant
us a security interest in all your shares and deposits, present and
future, and all accounts (except Individual Retirement Accounts
and Keogh Accounts) with the Credit Union to secure your Account
and agree, upon default, the Credit Union may apply all that is secured to pay any amounts due under this Agreement, without further notice to you. You further agree that collateral securing
other loans with the Credit Union (except loans secured by real
property) also secures this Account.
6. Periodic Statements
Each month, if your outstanding balance exceeds $1, we will send
you a statement showing new purchases, cash advances, payments, and credits made to your Account during the billing period,
your Previous Balance, your "Total New Balance," any Interest
Charge, and any other charges. Your statement also will identify
the remaining Credit Line available and the Minimum Monthly Payment you must make for that billing period and the date it is due.
For statement verification purposes, you agree to retain copies of
transaction slips resulting from each purchase, each advance, and
other transaction on your Account. Unless you notify us of a billing
error as described below, you accept your monthly statement as
an accurate statement of your Account with us.
7. Circumstances Under Which an Interest Charge
Will Be Imposed
The total outstanding balance of purchases, balance transfers, and
cash advances in the Account on the closing date of a billing period, including any Interest Charge, will be shown on the Periodic
Statement for that billing period as the "New Balance."
a. Cash Advances and Balance Transfers
We begin charging an Interest Charge on cash advances and balance transfers from the date of each transaction. There is no time
period within which to pay to avoid a periodic Interest Charge on
cash advances or balance transfers.
b. Purchases
Your due date is at least 25 days after the close of each billing period.
An Interest Charge will be imposed on the portion of purchases included in the New Balance that is not paid by the due date. Interest
Charges will not be imposed on purchases posted during a billing
cycle if your balance was zero (or a credit balance) at the end of the
previous billing cycle, or if you paid the entire “New Balance” shown
on your last periodic statement by its due date. This "grace period"
allows you to avoid an Interest Charge on purchases for a billing period. However, if you do not pay the New Balance for purchases
within the grace period, your Interest Charge will accrue on any unpaid purchase transactions from the first day of the billing period in
which the payment is due and on new purchase transactions from
the date of the transaction.
8. Method Used to Determine the Balance on
Which the Interest Charge May Be Computed
and Amount of Interest Charge
The Credit Union figures the Interest Charge on your Account by
multiplying the "Average Daily Balance" of purchases, balance
transfers, and cash advances for your Account (including current
transactions) by the Daily Periodic Rate and multiplying that
amount by the number of days in the billing cycle. To get the "Average Daily Balance" we take the beginning balance of your Account each day, add any new purchases or cash advances, and
subtract any payments or credits, unpaid Interest Charge and unpaid late charges. This gives us the daily balance. Then, we add
up all the daily balances for the billing period and divide the total
© 2021 Farleigh Wada Witt. All rights reserved.

by the number of days in the billing period. This gives us the "Average Daily Balance." To get the "Daily Periodic Rate," we divide
the Annual Percentage Rate in effect for the billing period by 365.
9. Periodic Rate and Corresponding Annual
Percentage Rate
a. Standard Rates
The Periodic Rate and corresponding Annual Percentage Rate(s)
used to compute the Interest Charge are set forth in the Account
Disclosure that accompanies, and is a part of, this Agreement. The
Annual Percentage Rate is divided by 365 to obtain the Daily Periodic Rate.
b. Introductory or Promotional Rates
At our discretion, we may offer you an introductory or promotional
Annual Percentage Rate for your Account. Any introductory or promotional Annual Percentage Rate will be subject to the terms of
the offer and this Agreement. We will provide you with information
on the offer, including the time period the introductory or promotional Annual Percentage Rate is in effect in the Account Disclosure or in other materials that we send to you about the offer after
you receive your Credit Card.
10. Conditions under Which Other Charges May
Be Imposed
You agree to pay the following fees and charges on your Account.
All fees and charges will be added to your purchase balance and
will accrue interest charges at the same rate that applies to your
purchase balance.
a. Balance Transfer Fee
You will pay a fee of $10 or 4.0% of the amount of the balance
transfer, whichever is greater.
b. Late Fee
If any payment is not made on or before 14 days after its due date,
you will pay a late fee. If your minimum payment is $25.00 or less,
the fee will equal 5.0% of the payment amount. If your minimum
payment is more than $25.00, the fee will equal the lesser of $10
or 5.00% of the payment amount.
c. Returned Item Fee
If any check, draft, or electronic payment we receive from you as
payment for any amount you owe to us is returned to us unpaid,
you agree to pay a returned item fee of $10 (or the amount of the
payment, whichever is less).
d. Rush Fee
If you ask and we agree to deliver your card by an expedited
method, you will pay a fee of $20.
e. International/Foreign Transaction Fee
You will be charged a Foreign Transaction Fee (FINANCE
CHARGE) of up to 1% of the transaction amount (in U.S. dollars)
for all foreign transactions, including purchases, cash advances
and credits to your account. A foreign transaction includes any
transaction where the merchant country is different from the country of the card issuer, regardless of whether a currency conversion
is performed. This includes any transaction made in a foreign currency or made in U.S. dollars if the transaction is made or processed outside of the U.S. For example, if you make an online
transaction in the U.S. with a merchant who processes the transaction in a foreign country, you will be assessed a Foreign Transaction Fee. All fees are calculated based on the transaction amount
after it is converted to U.S. dollars.
f. Copy Fee
You will pay $2.50 for each copy of a statement or other document.
g. Attorney's Fees and Costs
If you default on any part of this Agreement, you agree to pay us
all costs to collect your Account, including court costs and reasonable attorney fees whether or not there is a lawsuit, and fees on
any appeal and fees for bankruptcy proceedings, appeals, and any
post-judgment collection services, if applicable. These fees and

CC Acct• 07-01-21 3

First Community Credit Union  Credit Card Account Agreement

costs may be added to your Account balance and will bear interest
at the Annual Percentage Rate in effect at that time.
11. Conditions of Card Use
The use of your Card and Account are subject to the following conditions:
a. Use
Your Card and Account may be used only for valid and lawful purposes. You may not use your Card (i) to make Purchases or obtain
Cash Advances for any illegal transaction, or (ii) for any internet or
online gambling transactions. If you use your Card for any illegal or
prohibited transaction, this Agreement also applies to such transaction and you agree to pay any and all amounts related to such
transaction pursuant to the terms of this Agreement. We may, at
our sole discretion and without warning, restrict the use of or terminate your Card if we notice excessive use of your Card or other
suspicious activities or if we reasonably believe the Card is or has
been used for one or more illegal or prohibited transactions.
b. Ownership of Cards
Any Card or other credit instrument or device which we supply to
you is our property and must be returned to us, or to any person
whom we authorize to act as our agent, or to any person who is
authorized to honor the Card, immediately according to instructions. The Card may be repossessed at any time in our sole discretion without demand or notice. You cannot transfer your Card or
Account to another person.
c. Honoring the Card
We may decline to honor any transaction for any reason. Neither
we nor merchants authorized to honor the Card will be responsible
for the failure or refusal to honor the Card or any other credit instrument or device we supply to you. If a merchant agrees to give you
a refund or adjustment, you agree to accept a credit to your Account in lieu of a cash refund.
d. Currency Conversion
1) Visa. Transactions that are initiated in foreign countries or foreign currencies will be billed to you in U.S. dollars. The exchange
rate between the transaction currency and the billing currency used
for processing international transactions is a rate selected by Visa
from a range of rates available in wholesale currency markets for
the applicable central processing date, which rate may vary from
the rate Visa itself receives or the government-mandated rate in
effect for the applicable central processing date. The exchange
rate used on the processing date may differ from the rate that would
have been used on the purchase date or cardholder statement
posting date.
2) MasterCard. Transactions that are initiated in foreign countries
or foreign currencies will be billed to you in U.S. dollars. The exchange rate used to convert foreign currency transactions to U.S.
dollars is either a government-mandated exchange rate or a wholesale exchange rate and is selected by MasterCard. The rate MasterCard uses for a particular transaction is the rate MasterCard selects for the applicable currency on the day the transaction is
processed. This rate may differ from the rate applicable on the date
the transaction occurred or was posted to your account.
e. Notices and Payments
All notices will be sent to your address as shown in the application.
You agree to advise us promptly in writing if you change your mailing address. All payments should be mailed to us at the remittance
address shown on your monthly statements. Payments received at
that address will be credited to your Account as of the date received. Written notices and inquiries to us must be sent to:
First Community Credit Union
P.O. Box 1030
Chesterfield, MO 63006-1030

© 2021 Farleigh Wada Witt. All rights reserved.

f. Personal Identification Number
If we issue you a Personal Identification Number ("PIN") for use
with your Card in accessing your line of credit at ATMs, these numbers are issued to you for your security purposes. These numbers
are confidential and should not be disclosed to third parties. You
are responsible for safekeeping your PIN. You agree not to disclose or otherwise make available your PIN to anyone not authorized to sign on your Account. To keep your Account secure, please
do not write your PIN on your Card or keep it in the same place as
your Card.
12. Loan Protection
Loan Protection coverage is not required for any extension of credit
under this Agreement. However, you may purchase any loan protection available through us and have the monthly fee added to
your outstanding balance as purchases. If you elect to do so, we
will give you the necessary disclosures and documents separately.
13. Default
You will be in default under this Agreement if any of the following
occur: (a) Any Minimum Monthly Payment is not made when due;
(b) You become insolvent, bankrupt, or you die; (c) You violate any
part of this Agreement, or any other agreement with us; or (d) If we
reasonably deem ourselves insecure with respect to your Account.
Upon default, we may declare the entire unpaid balance immediately due and payable, and you agree to pay that amount plus any
attorney's fees and costs as set forth in Section 10 above, including
fees and costs in any appeal or bankruptcy proceeding. We can
delay enforcing any right under this Agreement without losing that
right or any other right. We will notify you in writing of any such
action as soon as practical if it occurs.
14. Governing Law
This Agreement will not take effect until it is approved by us. This
Agreement shall be governed by the laws of the State of Missouri.
15. Severability
If any provision of this Agreement is held invalid, the remaining provisions that are severable shall remain in effect.
16. Loss or Theft of Card
You agree to notify us immediately of the loss, or the theft, or the
use without your permission, of any Card or other credit instrument
or device which we supply to you. You may be liable for the unauthorized use of your card. You will not be liable for unauthorized
use which occurs after you notify: First Community Credit Union,
P.O. Box 1030, Chesterfield, MO 63006-1030, Telephone: (800)
610-0791, orally or in writing of loss, theft, or possible unauthorized
use. In any case, your liability shall not exceed $50.
17. Credit Information/Financial Statements
You authorize us to release information to others (e.g., credit bureaus, merchants, and other financial institutions) regarding the
status and history of your Credit Line. You agree to provide us, at
any time we deem necessary, with a current financial statement
and/or updated credit information upon request. We may investigate your credit directly or through a credit reporting agency.
18. Amendments
We reserve the right to change any terms or conditions of this
Agreement at any time, to the extent permitted by applicable law.
We will notify you of the changes to this Agreement as required by
law.
19. Billing Errors Notice, Your Credit Card
Billing Rights.
Keep this document for future use. This notice tells you about your
rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find A Mistake On Your Statement. If you think
there is an error on your statement, write to us at: First Community
Credit Union, P.O. Box 1030, Chesterfield, MO 63006-1030. In
your letter, give us the following information:

CC Acct• 07-01-21 4

First Community Credit Union  Credit Card Account Agreement

 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us,
but if you do, we are not required to investigate any potential errors
and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive
your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question or report you
as delinquent on that amount.
 The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
 While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
 If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the
date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.

© 2021 Farleigh Wada Witt. All rights reserved.

If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay.
If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between
us. If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied with Your Credit Card Purchases.
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase. To use this right, all
of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check
that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at the above address. While we
investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
20. Acknowledgment
You understand and agree to the terms and conditions in this Agreement and the Fair Credit Billing Notice. You acknowledge that you
have received a copy of this Agreement, the Account Disclosure, and
the Fair Credit Billing Notice. This Agreement is a final expression of
the agreement between you and the Credit Union.

CC Acct• 07-01-21 5

